1

No.
IN THE
SUPREME COURT OF THE UNITED STATES

PATRICIA WOODS, PETITIONER

VS.
STATE OF CALIFORNIA, PUBLIC EMPLOYMENT RELATIONS BOARD,
(PERB) AND CALIFORNIA DEPARTMENT OF CORRECTIONS AND
REHABILITATION, (CDCR) — RESPONDENT(S)

PROOF OF SERVICE

I, SHAUNEE WELLS, swear and declare that on this date, October 7, 2020, as required by
the Supreme Court Rule 29,1 have served and enclosed a PETITION FOR A WRIT OF
CERTIORARI, and APPENDICES 1-8 on each party to the above proceeding or that
party’s counsel, and on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to each of them
and with first-class postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days. The names and addresses of those served are as follows:

'I

PROOF OF SERVICE
PAGE 2

PATRICIA WOODS

PETITION FOR A WRIT OF CERTIORARI—U.S.SUPREME COURT
J. Felix De La Torre,
General Counsel
Keith B. Lamar,
Regional Attorney
Public Employment Relations Board
1031-18th Street
Sacramento, California 95811
XAVIER BECERRA,
Attorney General of California
KRISTIN M. DAILY, Supervising Deputy Attorney General
1300 I Street, Suite 125
P.O. Box 944255
Sacramento, California 94244-2550
I declare under penalty of perjury that the foregoing is true and correct.

Executed on OCTOBER 7, 2020

SHAUNEE WELLS

